APPENDIX A

Positive
As of: June 25, 2021 2:12 PM Z

United States v. Reed
United States Court of Appeals for the Sixth Circuit
April 1, 2021, Decided; April 1, 2021, Filed
File Name: 21a0078p.06
No. 20-5631
Reporter
993 F.3d 441 *; 2021 U.S. App. LEXIS 9526 **; 2021 FED App. 0078P (6th Cir.) ***

UNITED STATES OF AMERICA,
Plaintiff-Appellant, v. TERRY REED,
Defendant-Appellee.

judge's conclusion that defendant's ongoing
drug activity provided probable cause to
search his home.

Subsequent History: As Corrected April 2, Outcome
Suppression order reversed
2021.
remanded.
Rehearing denied by, En banc United States
LexisNexis® Headnotes
v. Reed, 2021 U.S. App. LEXIS 12927 (6th
Cir., Apr. 29, 2021)

and

case

Prior History: [**1] Appeal from the
United States District Court for the Western
District of Tennessee at Memphis. No. 2:19cr-20165-1—John Thomas Fowlkes, Jr.,
District Judge.

Constitutional Law > ... > Fundamental
Rights > Search & Seizure > Probable
Cause

United States v. Reed, 2020 U.S. Dist.
LEXIS 100537, 2020 WL 5358310 (W.D.
Tenn., Mar. 4, 2020)

Criminal Law &
Procedure > Preliminary
Proceedings > Pretrial Motions &
Procedures > Suppression of Evidence

Case Summary

Constitutional Law > ... > Fundamental
Rights > Search & Seizure > Scope of
Protection

Overview
HOLDINGS: [1]-The district court should
Constitutional Law > ... > Fundamental
not have suppressed the evidence seized
Rights > Search & Seizure > Warrants
from defendant's home because Leon's
good-faith exception applied because the HN1[ ] Search & Seizure, Probable
police could reasonably rely on the state Cause

Page 2 of 25
993 F.3d 441, *441; 2021 U.S. App. LEXIS 9526, **1; 2021 FED App. 0078P (6th Cir.), ***Cir.)

Even when a search violates the Fourth
Amendment, the United States Supreme
Court has held that courts should not
suppress evidence if the police reasonably
relied on a judge's decision that probable
cause justified a warrant.

Amendment) commands that no warrants
shall issue, but upon probable cause,
supported by oath or affirmation, and
particularly describing the place to be
searched, and the persons or things to be
seized. U.S. Const. amend. IV. Designed to
prohibit the general warrants common at the
time of the founding, this text requires that a
Criminal Law &
warrant specifically identify the place to be
Procedure > ... > Appeals > Standards of searched and the things to be seized. And
Review > De Novo Review
courts have long held that a probable-cause
nexus must connect these two together:
HN2[ ] Standards of Review, De Novo
There must be a fair probability that the
Review
specific place that officers want to search
The appellate court reviews the question will contain the specific things that they are
looking for.
whether Leon applies de novo.

Constitutional Law > ... > Fundamental
Rights > Search & Seizure > Probable
Cause

Constitutional Law > ... > Fundamental
Rights > Search &
Seizure > Exclusionary Rule

Criminal Law & Procedure > ... > Search
Warrants > Probable
Cause > Particularity Requirement

Criminal Law & Procedure > Search &
Seizure > Exclusionary Rule > Rule
Application & Interpretation

Criminal Law & Procedure > Search &
Seizure > Search
Warrants > Particularity Requirement

Constitutional Law > ... > Fundamental
Rights > Search & Seizure > Scope of
Protection

Constitutional Law > ... > Fundamental
Rights > Search & Seizure > Scope of
Protection

Criminal Law &
Procedure > ... > Exclusionary
Rule > Exceptions to Exclusionary
Rule > Scope of Exceptions

Constitutional Law > ... > Fundamental
Rights > Search & Seizure > Warrants
HN3[ ]
Cause

Search & Seizure, Probable

HN4[ ] Search & Seizure, Exclusionary
Rule

The United States Supreme Court's
exclusionary rule bars the government from
The Fourth Amendment (applicable to state admitting incriminating evidence at a
officers
through
the
Fourteenth defendant's trial if the police violated the

Page 3 of 25
993 F.3d 441, *441; 2021 U.S. App. LEXIS 9526, **1; 2021 FED App. 0078P (6th Cir.), ***Cir.)

Fourth Amendment when discovering the
evidence. Yet the exclusionary rule does not
reach all Fourth Amendment violations no
matter the circumstances. Because the
Amendment contains no provision expressly
precluding the use of evidence obtained in
violation of its commands, the Supreme
Court has felt free to adjust the rule's scope
by considering whether its benefits
outweigh its costs in particular settings.

Constitutional Law > ... > Fundamental
Rights > Search &
Seizure > Exclusionary Rule
Criminal Law &
Procedure > ... > Exclusionary
Rule > Exceptions to Exclusionary
Rule > Good Faith
Criminal Law & Procedure > Search &
Seizure > Exclusionary Rule > Rule
Application & Interpretation
Criminal Law &
Procedure > ... > Exclusionary
Rule > Exceptions to Exclusionary
Rule > Reasonable Reliance Upon
Warrant
Criminal Law &
Procedure > ... > Exclusionary
Rule > Exceptions to Exclusionary
Rule > Scope of Exceptions

Because most police officers are not
lawyers, they may be expected to defer to
the judge's legal conclusion in that regard.
So if it later turns out that probable cause
did not exist, the judge will typically be the
blameworthy party, not the officer who
relied on the judge's legal mistake. Yet the
exclusionary rule seeks to deter police (not
judicial) misconduct. And the officer's
objective reliance on the judge's probablecause opinion does not show the type of
"flagrancy" required for the exclusionary
rule's benefits to outweigh its costs. In
Leon, therefore, the United States Supreme
Court held that the exclusionary rule
generally should not apply when officers
obtain a warrant from a neutral judge.

Constitutional Law > ... > Fundamental
Rights > Search &
Seizure > Exclusionary Rule
Criminal Law &
Procedure > ... > Exclusionary
Rule > Exceptions to Exclusionary
Rule > Good Faith
Criminal Law &
Procedure > ... > Exclusionary
Rule > Exceptions to Exclusionary
Rule > Reasonable Reliance Upon
Warrant

HN5[ ] Search & Seizure, Exclusionary
Rule

Criminal Law &
Procedure > ... > Exclusionary
Rule > Exceptions to Exclusionary
Rule > Scope of Exceptions

When a judge issues a warrant, the judge
has made the independent decision that
probable cause exists for the search.

Criminal Law & Procedure > Search &
Seizure > Exclusionary Rule > Rule

Page 4 of 25
993 F.3d 441, *441; 2021 U.S. App. LEXIS 9526, **1; 2021 FED App. 0078P (6th Cir.), ***Cir.)

Application & Interpretation
HN6[ ] Search & Seizure, Exclusionary
Rule

probable cause. Courts have described a
minimally sufficient nexus as one in which
there is some connection, regardless of how
remote it may have been, some modicum of
evidence, however slight, between the
criminal activity at issue and the place to be
searched.

Leon's good-faith exception to the
exclusionary rule does not apply if an
officer's affidavit in support of the warrant
is so lacking in indicia of probable cause as
to render official belief in its existence
Constitutional Law > ... > Fundamental
entirely unreasonable. This type of affidavit,
Rights > Search & Seizure > Probable
what courts have called a bare-bones
Cause
affidavit, shows that the officer recklessly
relied on the judge's decision that probable HN8[ ] Search & Seizure, Probable
cause existed for the warrant.
Cause
Constitutional Law > ... > Fundamental
Rights > Search & Seizure > Probable
Cause
Criminal Law &
Procedure > ... > Exclusionary
Rule > Exceptions to Exclusionary
Rule > Good Faith
HN7[ ]
Cause

Search & Seizure, Probable

Even if an affidavit describing a suspect's
drug activity does not establish a probablecause nexus between the place to be
searched and the evidence of that activity,
the affidavit will avoid the bare-bones label
so long as it identifies a minimally
sufficient nexus between the two. What is
the difference between a proper nexus
(sufficient for probable cause) and a
minimal one (sufficient for Leon)? There
obviously must be daylight between the two
standards because Leon's exception applies
only when an affidavit falls short of

Because probable cause entails a deep dive
into the totality of the circumstances,
officers will often find it difficult to know
how the general standard applies in the
precise situation encountered.

Criminal Law &
Procedure > Sentencing > Forfeitures >
Proceedings
HN9[ ] Forfeitures, Proceedings
Forfeiture cases recognize a distinction
between failing to properly raise a claim
before the district court and failing to make
an argument in support of that claim. Along
those lines, the appellate court typically
finds no forfeiture on appeal when a
particular authority or strain of the argument
was not raised below, as long as the issue
itself was properly raised.

Criminal Law &
Procedure > ... > Exclusionary

Page 5 of 25
993 F.3d 441, *441; 2021 U.S. App. LEXIS 9526, **1; 2021 FED App. 0078P (6th Cir.), ***Cir.)

Rule > Exceptions to Exclusionary
Rule > Good Faith

Opinion by: MURPHY
Opinion

HN10[ ] Exceptions to Exclusionary
Rule, Good Faith
A court reviewing an officer's good faith
under Leon may look beyond the four
corners of the warrant affidavit to
information that was known to the officer
and revealed to the issuing magistrate.

Evidence > Types of
Evidence > Documentary
Evidence > Affidavits
HN11[ ]
Affidavits

Documentary

Evidence,

Courts assess an affidavit on the adequacy
of what it does contain, not on what it lacks,
or on what a critic might say should have
been added. And the court must read the
affidavit reasonably by employing a healthy
dose of common sense. So if an inference is
obvious from the factual context, a
reviewing court should indulge it.
Counsel: ON BRIEF: Naya Bedini,
UNITED STATES ATTORNEY'S
OFFICE, Memphis, Tennessee, for
Appellant.
Robert L. Thomas, OFFICE OF THE
FEDERAL PUBLIC DEFENDER,
Memphis, Tennessee, for Appellee.
Judges: Before: CLAY, READLER, and
MURPHY, Circuit Judges. MURPHY, J.,
delivered the opinion of the court in which
READLER, J., joined. CLAY, J. (pp. 1726), delivered a separate dissenting opinion.

[*444] [***1] MURPHY, Circuit Judge.
This case raises a recurring Fourth
Amendment question. Suppose that the
police uncover evidence that an individual
is illegally selling drugs. When does that
evidence create probable cause to search the
individual's home for drugs, drug proceeds,
or other evidence of drug dealing? We have
"struggled" to answer this question in a
consistent way
[***2]
because it
implicates two competing principles. United
States v. Ardd, 911 F.3d 348, 351 (6th Cir.
2018). Under the first principle, probable
cause to arrest a suspect for a crime does not
necessarily create probable cause to search
the suspect's home. So our cases, at times,
say that officers need additional evidence of
a "nexus" between the drug dealing [**2]
and the dealer's home. United States v.
Brown, 828 F.3d 375, 383-84 (6th Cir.
2016). Under the second principle, the
probable-cause test allows officers to make
common-sense conclusions about where
people hide things. So our cases also say
that evidence of a drug dealer's ongoing
drug activity can sometimes create this
nexus to search the dealer's home. United
States v. Sumlin, 956 F.3d 879, 886 (6th
Cir. 2020).
It can be difficult to decide which of these
principles
controls.
The
judicial
disagreement in this case over whether the
police had probable cause to search Terry
Reed's home proves the point. Relying on
the second principle, a magistrate judge held

Page 6 of 25
993 F.3d 441, *444; 2021 U.S. App. LEXIS 9526, **2; 2021 FED App. 0078P (6th Cir.), ***2

that probable cause existed because an
officer's affidavit showed that Reed was a
drug dealer engaged in ongoing drug
activity. Relying on the first, the district
court held that probable cause did not exist
because the affidavit lacked other evidence
connecting Reed's drug activity to his home.
Yet we need not decide who was right. This
appeal concerns only whether the district
court properly suppressed the evidence
discovered during the search despite a state
judge's warrant to undertake it. HN1[ ]
Even when a search violates the Fourth
Amendment, the Supreme Court has held
that courts should not suppress evidence if
the police reasonably relied on a judge's
decision [**3] that probable cause justified
a warrant. United States v. Leon, 468 U.S.
897, 922-23, 104 S. Ct. 3405, 82 L. Ed. 2d
677 (1984). And given our "unsettled
jurisprudence" on this nexus question, the
police could reasonably rely on [*445] the
judge's finding that Reed's ongoing drug
activity provided probable cause to search
his home. United States v. Hodge, 246 F.3d
301, 309 (3d Cir. 2001) (Alito, J.). Without
deciding
the
thornier
constitutional
question, then, we hold only that the district
court should not have suppressed the
evidence. We reverse.
I
Officers with the police department in
Memphis, Tennessee, came to suspect Reed
of distributing marijuana. Ultimately, on
May 17, 2018, Detective Brandon Evans
filed three affidavits seeking search
warrants for three locations. Evans's first
affidavit sought a warrant to [***3] search
the business "OK Tire" for marijuana, drug

paraphernalia, and drug-related records. In
this affidavit, Evans described his training
and experience and indicated that he had
been investigating Reed's drug trafficking.
Within the last five days, Evans explained, a
confidential informant had made a
controlled buy from Reed at the OK Tire
and had seen Reed "selling and storing
marijuana" there. The purchased substance
tested positive for THC. Evans noted that
Reed's girlfriend, Dominique Johnson, had
witnessed the [**4] buy and that a
computer search had identified her as the
business's owner. Evans added that he had
surveilled Johnson and Reed leaving their
home on Kate Bond Road and traveling to
the OK Tire. He had also seen both of them
use their own set of keys to open the
business on different occasions. Evans lastly
described the informant's reliability: The
informant had been responsible for several
prior drug seizures and had provided
information about drug houses that had been
corroborated through additional police
work.
Evans's second affidavit sought a warrant to
search a home on Orchi Road for the same
evidence. In this affidavit, Evans noted that
Reed's mother lived at the Orchi Road
address and that Reed's driver's license
listed it. Evans also indicated that the
confidential informant had made a
controlled buy from Reed at this home
within the last 20 days. Surveilling this buy,
Evans watched Reed walk out of the house
and sell marijuana to the informant. Evans
again explained that the purchased
substance tested positive for THC. Aside
from the controlled buy, Evans stated that

Page 7 of 25
993 F.3d 441, *445; 2021 U.S. App. LEXIS 9526, **4; 2021 FED App. 0078P (6th Cir.), ***3

he had watched Reed drive the streets near
this home in a maroon Mustang and
"conduct hand to hand transactions" [**5]
with individuals. Within the last five days,
Evans added, he saw Reed drive a brown
Cadillac Escalade and park it at the home.
Evans also watched people pull into the
home's driveway. Reed would come out and
engage in hand-to-hand transactions with
these individuals. Evans noted that "[o]n
some occasions" the individuals would
"hand Reed money and Reed would in turn
hand them a clear bag with an unknown
substance." Evans lastly indicated that Reed
had four prior felony drug convictions and
two prior misdemeanor drug convictions.
Evans's third affidavit sought a warrant to
search Reed and Johnson's home on Kate
Bond Road for financial records and drug
proceeds (but not for drugs). In this
affidavit, Evans again recounted his
experience investigating drug crimes and
the informant's controlled buys [***4]
from Reed at the other two locations. Evans
noted that Johnson had active utilities in her
name at the home on Kate Bond Road and
that she and Reed had lived together at
different homes in Memphis. Evans also
indicated that he had watched Reed and
Johnson leave this home in the brown
Cadillac Escalade. The informant had
likewise confirmed to Evans that Johnson
and Reed lived together.

only baggies and a digital scale from the
Orchi Road home. But the search of the
home on Kate Bond Road uncovered two
guns, about 18 rounds of ammunition, 18.7
grams of marijuana, 2.1 grams of THC wax,
and $5,636 in cash.
After the search, Reed waived his rights
under Miranda v. Arizona, 384 U.S. 436, 86
S. Ct. 1602, 16 L. Ed. 2d 694 (1966). He
confessed that the guns and drugs belonged
to him and that he had been selling
marijuana.
The government indicted Reed on five
counts: one count of possession with the
intent to distribute marijuana, in violation of
21 U.S.C. § 841(a)(1); two counts of
possession of a firearm in furtherance of a
drug-trafficking crime, in violation of 18
U.S.C. § 924(c); and two counts of being a
felon in possession of a firearm, in violation
of 18 U.S.C. § 922(g)(1). Reed moved to
suppress the evidence obtained from the
search of his home on Kate Bond Road,
including his statements to police. He
argued that the affidavit in support of this
warrant failed to identify a "nexus" between
his drug dealing and the home so as to raise
an inference that drug records or [**7]
proceeds would be found there. Reed also
argued that the affidavit was so deficient
that the judge's warrant could not avoid the
exclusionary rule under the good-faith
exception from United States v. Leon, 468
U.S. 897, 104 S. Ct. 3405, 82 L. Ed. 2d 677
(1984).

[*446] A state [**6] judge decided that
probable cause existed to issue search
warrants for all three locations (and signed
the warrants within a minute of each other). A magistrate judge recommended that the
Officers executed the warrants the next day. district court deny Reed's motion. United
They seized nothing from the OK Tire and States v. Reed, 2020 U.S. Dist. LEXIS

Page 8 of 25
993 F.3d 441, *446; 2021 U.S. App. LEXIS 9526, **7; 2021 FED App. 0078P (6th Cir.), ***4

100537, 2020 WL 5358310, at *8 (W.D.
Tenn. Mar. 4, 2020). The judge noted that
an affidavit in support of a search warrant
must identify a probable-cause nexus
between the place to be searched and the
items to be seized. 2020 U.S. Dist. LEXIS
100537, [WL] at *5. But the judge
concluded that this nexus existed based on
our cases stating that officers can
reasonably "infer that 'instrumentalities and
[***5] fruits' of drug trafficking may be
found inside a known drug dealer's
residence." 2020 U.S. Dist. LEXIS 100537,
[WL] at *7 (citation omitted).

order. See 18 U.S.C. § 3731. It argues only
that the district court should have applied
Leon's good-faith exception to the
exclusionary rule. HN2[ ] We review the
question whether Leon applies de novo. See
United States v. Frazier, 423 F.3d 526, 533
(6th Cir. 2005).
II
A
HN3[ ]
The
Fourth
Amendment
(applicable to state officers through the
Fourteenth Amendment) commands that "no
Warrants shall issue, but upon probable
cause, supported by Oath or affirmation,
[*447] and particularly describing the
place to be searched, and the persons or
things to be seized." U.S. Const. amend. IV.
Designed to prohibit the general warrants
common at the time of the founding, this
text requires that a warrant specifically
identify the "place" to be searched and the
"things" to be seized. Id.; see Ashcroft v. alKidd, 563 U.S. 731, 742-43, 131 S. Ct.
2074, 179 L. Ed. 2d 1149 (2011). And
courts have long held that a probable-cause
"nexus" must connect these two together:
There must be a fair probability that the
specific place that officers want to search
will contain the specific things that they are
looking for. See United States v. Carpenter,
360 F.3d 591, 594 (6th Cir. 2004) (en
banc); see also Zurcher v. Stanford Daily,
436 U.S. 547, 556, 98 S. Ct. 1970, 56 L. Ed.
2d 525 (1978).

The district court disagreed and suppressed
the evidence. United States v. Reed, 2020
U.S. Dist. LEXIS 99958, 2020 WL 3050771,
at *7 (W.D. Tenn. June 8, 2020). While
acknowledging Reed's status as a "known
drug dealer," the court held that Evans's
affidavit fell short because it contained no
allegations that Reed conducted drug
activity at his home on Kate Bond Road.
2020 U.S. Dist. LEXIS 99958, [WL] at *1,
*2-3. The court next held that Leon's goodfaith exception did not apply. 2020 U.S.
Dist. LEXIS 99958, [WL] at *4-5. It
reasoned that Evans should have known that
the affidavit needed to contain more
allegations than "the fact that [Reed], who
happens to be a drug dealer, resides" at the
home. 2020 U.S. Dist. LEXIS 99958, [WL]
at *5. This conclusion [**8] led the court to
suppress both the evidence recovered from
the home and Reed's statements after the
search. 2020 U.S. Dist. LEXIS 99958, [WL] [***6] This case implicates a common
at *5-7.
"nexus" problem. Assume that officers
The government has filed an immediate reasonably conclude that a person [**9] has
appeal from the district court's suppression committed a crime (say, a robbery) away

Page 9 of 25
993 F.3d 441, *447; 2021 U.S. App. LEXIS 9526, **9; 2021 FED App. 0078P (6th Cir.), ***6

from the person's home. When may the
officers obtain a warrant to search the
suspect's home for evidence of the crime
(say, the gun used or money taken)? This
issue raises conflicting concerns. On the one
hand, probable cause to arrest a suspect
does not necessarily establish probable
cause to search the suspect's home. See
United States v. Baker, 976 F.3d 636, 64546 (6th Cir. 2020). Rather, the arrest and
search inquiries ask different questions:
whether there is a fair probability that a
person has committed a crime versus
whether there is a fair probability that the
person's home will contain evidence of one.
See United States v. Savoca, 761 F.2d 292,
297 (6th Cir. 1985). And, of course, the
Fourth Amendment treats the home as "first
among equals." Florida v. Jardines, 569
U.S. 1, 6, 133 S. Ct. 1409, 185 L. Ed. 2d 495
(2013). Its "core" protection allows
individuals to "retreat into" their home and
"be free from unreasonable governmental
intrusion" there. Id. (citation omitted).
On the other hand, probable cause is a
"practical and common-sensical standard[.]"
Florida v. Harris, 568 U.S. 237, 244, 133 S.
Ct. 1050, 185 L. Ed. 2d 61 (2013). It
requires only "the kind of 'fair probability'
on which 'reasonable and prudent [people,]
not legal technicians, act.'" Id. (quoting
Illinois v. Gates, 462 U.S. 213, 231, 238,
103 S. Ct. 2317, 76 L. Ed. 2d 527 (1983)).
So many courts have acknowledged as a
common-sense matter that a suspect's home
often will be a likely place that the suspect
has kept evidence of a [**10] crime. See
United States v. Williams, 544 F.3d 683,
688 (6th Cir. 2008) (collecting cases). All

things being equal, for example, "it is
reasonable . . . to assume that a person
keeps his possessions where he resides."
Peffer v. Stephens, 880 F.3d 256, 270 (6th
Cir. 2018).
These competing concerns have pulled
courts in both directions when they have
tried to answer this nexus question. The
result? Courts have drawn fine lines
between cases with "little to distinguish"
those that find probable cause from those
that do not. Savoca, 761 F.2d at 298. This
tension may be explained, in part, by the
nature of the task. The probable-cause test
requires courts to consider the totality of the
circumstances in each case, so "one
determination will seldom be a useful
'precedent' for" the next. Id. at 297 (quoting
Gates, 462 U.S. at 238 n.11). To promote
greater consistency, though, we have
identified several recurring factors. Whether
the police may "infer a nexus between a
suspect and his residence," we have said,
turns on "the type of crime being
investigated, the nature of the things to be
seized, the extent of an [***7] opportunity
to conceal the evidence elsewhere and the
normal inferences that may be drawn as to
likely hiding places." [*448] Williams, 544
F.3d at 687 (quoting Savoca, 761 F.2d at
298).
The type of crime in this case—drug
dealing—shows the difficulty of providing
"guidance for such a fact-bound legal
determination." [**11] United States v.
Brown, 828 F.3d 375, 382 (6th Cir. 2016).
With categorical statements pointing in
opposite directions, our decisions "have
struggled to identify the quantum of

Page 10 of 25
993 F.3d 441, *448; 2021 U.S. App. LEXIS 9526, **11; 2021 FED App. 0078P (6th Cir.), ***7

evidence needed to connect drug trafficking
by an individual to a probability that
evidence will be found at the individual's
residence." United States v. Ardd, 911 F.3d
348, 351 (6th Cir. 2018). When finding
probable cause to search a home, we have
asserted broad propositions like: "[I]n the
case of drug dealers, evidence is likely to be
found where the dealers live." United States
v. Sumlin, 956 F.3d 879, 886 (6th Cir.
2020) (quoting United States v. Jones, 159
F.3d 969, 975 (6th Cir. 1998)); see, e.g.,
United States v. Feagan, 472 F. App'x 382,
392 (6th Cir. 2012); United States v.
Gunter, 551 F.3d 472, 481-82 (6th Cir.
2009); United States v. Goward, 188 F.
App'x 355, 358-59 (6th Cir. 2006) (per
curiam); United States v. Newton, 389 F.3d
631, 635-36 (6th Cir. 2004) (vacated on
other grounds); United States v. Miggins,
302 F.3d 384, 393-94 (6th Cir. 2002).
These decisions suggest that courts
generally may find a nexus to search a drug
dealer's home "even 'when there is
absolutely no indication of any wrongdoing
occurring'" there. Sumlin, 956 F.3d at 886
(quoting Goward, 188 F. App'x at 358-59).
When finding the absence of probable cause
to search a home, by contrast, we have
rejected "the proposition that the defendant's
status as a drug dealer, standing alone, gives
rise to a fair probability that drugs will be
found in his home." Brown, 828 F.3d at 383
(quoting Frazier, 423 F.3d at 533); see,
e.g., United States v. Fitzgerald, 754 F.
App'x 351, 361 (6th Cir. 2018); United
States v. Bethal, 245 F. App'x 460, 466-67
(6th Cir. 2007). These decisions suggest
that courts generally may not find a nexus to

search a drug dealer's home when "the
affidavit fails to include facts that directly
connect the residence with the suspected
drug
dealing
activity,
or
the
evidence [**12] of this connection is
unreliable[.]" Brown, 828 F.3d at 384.
Although these statements may appear to
conflict on a first (or second) read, we have
reconciled our caselaw in fact-specific
ways. Most obviously, a court need not rely
on a known drug dealer's status alone
whenever other evidence (besides the
dealer's living there) links drug [***8]
dealing to the dealer's home. We have, for
example, found a probable-cause nexus to
search a drug dealer's home when the police
watched the suspect leave a home,
undertake a drug deal, and return there.
United States v. Ellison, 632 F.3d 347, 349
(6th Cir. 2011); see United States v.
Coleman, 923 F.3d 450, 457-58 (6th Cir.
2019); United States v. Houser, 752 F.
App'x 223, 226-27 (6th Cir. 2018); United
States v. Jenkins, 743 F. App'x 636, 644 (6th
Cir. 2018). We have found this nexus when
drugs were found in the drug dealer's car
near the home. United States v. Berry, 565
F.3d 332, 339 (6th Cir. 2009). And we have
found it when a suspect caught with drugs
lied about his home address. United States
v. Caicedo, 85 F.3d 1184, 1193 (6th Cir.
1996).
Even if no specific evidence ties drug
dealing to a home, we have also called it
"well established" that a nexus to search the
home can exist if a suspect's drug dealing is
"ongoing" at the time the police seek the
warrant. Feagan, 472 F. App'x at 392; see
Gunter, 551 F.3d at 481-82; Goward, 188

Page 11 of 25
993 F.3d 441, *448; 2021 U.S. App. LEXIS 9526, **12; 2021 FED App. 0078P (6th Cir.), ***8

F. App'x at 358; Miggins, 302 F.3d at 388;
see also United States v. Kenny, 505 F.3d
458, 461-62 (6th Cir. 2007). When an
officer identifies "recent, [*449] reliable
evidence of drug activity," United States v.
McCoy, 905 F.3d 409, 418 (6th Cir. 2018),
that activity can provide a "reason to believe
that drugs or other evidence of crime [will]
be found in the suspect's" home beyond the
suspect's status as a drug dealer
alone, [**13] see Peffer, 880 F.3d at 273.
Conversely, we have also relied on factspecific rationales when limiting the
principle that a drug dealer's ongoing drug
operations can create probable cause to
search the dealer's home. In some cases, the
officer's affidavit showed that the suspect
had engaged in, at most, one drug
transaction. See Fitzgerald, 754 F. App'x at
360; Brown, 828 F.3d at 378-80, 382-84. In
others, the affidavit described stale drug
activity from a significant time ago. See
United States v. Ward, 967 F.3d 550, 55557 (6th Cir. 2020) (citing United States v.
Hython, 443 F.3d 480, 486 (6th Cir. 2006)).
In still others, the affidavit failed to show
that the relevant home belonged to a drug
dealer. One defendant was not a known
drug dealer and may have possessed drugs
only for personal use, see United States v.
McPhearson, 469 F.3d 518, 524-25 (6th
Cir. 2006), while another had been
described as a drug dealer only by an
unreliable informant, see Frazier, 423 F.3d
at 533; see also Bethal, 245 F. App'x at 467.

of the affiant-officer's experience (or, for
that matter, the magistrate's own commonsense judgment) that drug dealers ordinarily
keep their supply, records and monetary
profits at home." 2 Wayne R. LaFave,
Search and Seizure: A Treatise on the
Fourth Amendment § 3.7(d) (6th ed.),
Westlaw (database updated Sept. 2020). As
the D.C. Circuit put it, [**14] "[w]hen
there is probable cause that a defendant is
dealing drugs, there often tends to be
probable cause that evidence of that drug
dealing will be found in the defendant's
residence." United States v. Cardoza, 713
F.3d 656, 661, 404 U.S. App. D.C. 328
(D.C. Cir. 2013) (Kavanaugh, J.); see also
United States v. Dixon, 787 F.3d 55, 60 (1st
Cir. 2015); United States v. Hodge, 246
F.3d 301, 306 (3d Cir. 2001); United States
v. Grossman, 400 F.3d 212, 217-18 (4th
Cir. 2005); United States v. Haynes, 882
F.3d 662, 666 (7th Cir. 2018) (per curiam);
United States v. Ross, 487 F.3d 1120, 1123
(8th Cir. 2007); United States v. AnguloLopez, 791 F.2d 1394, 1399 (9th Cir. 1986);
United States v. Biglow, 562 F.3d 1272,
1278-80, 1283 (10th Cir. 2009); United
States v. Cunningham, 633 F. App'x 920,
922 (11th Cir. 2015) (per curiam).

Yet some of these courts also suggest that
they do not follow a "per se rule
automatically permitting the search of a
defendant's home when he has engaged in
drug activity." United States v. Roman, 942
F.3d 43, 51 (1st Cir. 2019). Instead, they
have, at times, noted that probable cause
[***9] For what it is worth, other courts may require some small amount of
struggle with this issue too. They have "additional evidence" beyond a suspect's
broadly stated that probable cause can exist drug-dealer status. Biglow, 562 F.3d at
to search a drug dealer's home "on the basis

Page 12 of 25
993 F.3d 441, *449; 2021 U.S. App. LEXIS 9526, **14; 2021 FED App. 0078P (6th Cir.), ***9

1279 (citation omitted). One court, for
example, listed other potentially relevant
factors, including whether the suspect was
engaged in "large-scale operations,"
whether the affidavit was based on "the
conclusions of experienced officers
regarding where evidence of a crime is
likely to be found," whether the defendant's
home was in the same general area of the
drug activity, and whether probable cause
existed to arrest the defendant for drug
crimes. United States v. Rosario, 837 F.
App'x 117, 120 (3d Cir. 2020) (citation
omitted).
B
When judged under these probable-cause
standards, the facts of this case [*450] sit
on the hazy constitutional border between a
sufficient nexus and an insufficient [**15]
hunch. But we need not resolve this
probable-cause question. The government
does not now argue that the search of
[***10] Reed's home on Kate Bond Road
comported with the Fourth Amendment.
Rather, the parties debate only the proper
remedy: Should the district court have
suppressed the recovered evidence? We
may resolve this case on this narrower
remedy ground. Cf. Ardd, 911 F.3d at 351.
HN4[ ] The Supreme Court's exclusionary
rule bars the government from admitting
incriminating evidence at a defendant's trial
if the police violated the Fourth Amendment
when discovering the evidence. See Mapp v.
Ohio, 367 U.S. 643, 654, 81 S. Ct. 1684, 6
L. Ed. 2d 1081, 86 Ohio Law Abs. 513
(1961). Yet the exclusionary rule does not
reach all Fourth Amendment violations no

matter the circumstances. See Davis v.
United States, 564 U.S. 229, 237-38, 131 S.
Ct. 2419, 180 L. Ed. 2d 285 (2011).
Because the amendment "contains no
provision expressly precluding the use of
evidence obtained in violation of its
commands," Arizona v. Evans, 514 U.S. 1,
10, 115 S. Ct. 1185, 131 L. Ed. 2d 34
(1995), the Supreme Court has "felt free to
adjust the rule's scope" by considering
whether its benefits outweigh its costs in
particular settings, Baker, 976 F.3d at 646.
This case's setting involves a search
pursuant to a warrant issued by a state
judge. HN5[ ] When a judge issues a
warrant, the judge has made the independent
decision that probable cause exists for the
search. Leon, 468 U.S. at 921. Because most
police officers are not lawyers, they may be
expected to defer to the judge's legal
conclusion [**16] in that regard. See id. So
if it later turns out that probable cause did
not exist, the judge will typically be the
blameworthy party, not the officer who
relied on the judge's legal mistake. See
Davis, 564 U.S. at 239. Yet the
exclusionary rule seeks to deter police (not
judicial) misconduct. See id. And the
officer's objective reliance on the judge's
probable-cause opinion does not show the
type of "flagrancy" required for the
exclusionary rule's benefits to outweigh its
costs. Id. at 237-38 (quoting Leon, 468 U.S.
at 911). In Leon, therefore, the Court held
that the exclusionary rule generally should
not apply when officers obtain a warrant
from a neutral judge. See 468 U.S. at 92223.
That

said,

Leon

identified

several

Page 13 of 25
993 F.3d 441, *450; 2021 U.S. App. LEXIS 9526, **16; 2021 FED App. 0078P (6th Cir.), ***10

circumstances in which officers would be
sufficiently blameworthy to trigger the
exclusionary rule despite a judge's warrant
(such as when the officers lie to obtain it).
See United States v. White, 874 F.3d 490,
496 (6th Cir. 2017). HN6[ ] As relevant
here, Leon's good-faith exception to the
exclusionary rule does not apply if an
officer's affidavit in support of the warrant
is "so lacking in indicia of probable cause as
to render official belief in its existence
entirely unreasonable." 468 U.S. at 923
(citation omitted). This type of affidavit—
what [***11] we have called a "bare-bones
affidavit"—shows that the officer [**17]
recklessly relied on the judge's decision that
probable cause existed for the warrant.
White, 874 F.3d at 496.
Leon's good-faith exception extends to this
case's nexus question. HN7[ ] Even if an
affidavit describing a suspect's drug activity
does not establish a probable-cause nexus
between the place to be searched and the
evidence of that activity, the affidavit will
avoid the bare-bones label so long as it
identifies a "minimally sufficient" nexus
between the two. Carpenter, 360 F.3d at
596; see also, e.g., McCoy, 905 F.3d at 416;
Jenkins, 743 F. App'x at 645. What is the
difference between a proper nexus [*451]
(sufficient for probable cause) and a
minimal one (sufficient for Leon)? There
obviously "must be daylight" between the
two standards because Leon's exception
applies only when an affidavit falls short of
probable cause. White, 874 F.3d at 497;
United States v. Washington, 380 F.3d 236,
241 (6th Cir. 2004). We have described a
minimally sufficient nexus as one in which

there is "some connection, regardless of
how remote it may have been—some
modicum of evidence, however slight—
between the criminal activity at issue and
the place to be searched." McCoy, 905 F.3d
at 416 (quoting White, 874 F.3d at 497).
C
Does a minimal connection exist in this
case? Yes, Leon's good-faith exception
applies because Detective Evans could
reasonably rely on the state judge's
conclusion that probable cause existed to
search Reed's [**18] home on Kate Bond
Road. We reach this conclusion for several
reasons.
First, Reed does not dispute two critical
points. Point One: The police had probable
cause to believe that Reed was a drug dealer
who had engaged in recent drug sales. A
reliable informant had made controlled buys
from Reed at the Orchi Road residence
(within the last twenty days) and at the OK
Tire (within the last five days). Evans had
also seen Reed engaged in suspicious
transactions near the Orchi Road home and
had confirmed Reed's many prior drug
convictions.
Point Two: The police had probable cause
to believe that Reed lived at the home on
Kate Bond Road. His girlfriend had utilities
in her name at this address and Evans knew
that the two had lived together at other
Memphis homes. The informant likewise
relayed to Evans that [***12] Johnson and
Reed currently lived together. Evans also
connected the brown Cadillac Escalade
parked at the home on Orchi Road during
Reed's suspected drug sales to the one

Page 14 of 25
993 F.3d 441, *451; 2021 U.S. App. LEXIS 9526, **18; 2021 FED App. 0078P (6th Cir.), ***12

Evans saw at the home on Kate Bond Road. we have suggested that it can apply based
And Evans had watched Reed leave this on "recent, reliable evidence of drug
home and travel to the OK Tire.
activity." McCoy, 905 F.3d at 418. Evans's
affidavits at least showed [**20] this much.
These undisputed points go a long way
toward showing that Leon's good-faith [*452] In light of our "unsettled
exception applies. Indeed, when we [**19] jurisprudence" regarding the amount of
have rejected Leon's exception in the past, required drug activity, Evans did not behave
the police generally lacked reliable proof recklessly by relying on the state judge's
that the defendant was recently (or ever) conclusion that Reed's drug activity
engaged in drug dealing. In that respect, the sufficed. Hodge, 246 F.3d at 309; see Ross,
probable cause to believe that Reed was a 487 F.3d at 1124; United States v. Nolan,
drug dealer distinguishes several of our 199 F.3d 1180, 1185 (10th Cir. 1999). The
decisions that refused to apply Leon's conflicting opinions in the district court
exception based on a lack of such proof. See confirm that this case falls within the
McPhearson, 469 F.3d at 526-27; cf. twilight zone left by our decisions. The
Brown, 828 F.3d at 384; Bethal, 245 F. magistrate judge found probable cause to
App'x at 468. Likewise, the probable cause search Reed's home based on one "line of
to believe that Reed engaged in recent drug cases holding 'that an issuing judge
deals distinguishes other decisions that [***13] may infer that drug traffickers use
refused to apply Leon's exception on their homes to store drugs and otherwise
staleness grounds. See Ward, 967 F.3d at further their drug trafficking.'" Reed, 2020
556-57; Brown, 828 F.3d at 385; Hython, U.S. Dist. LEXIS 100537, 2020 WL
443 F.3d at 486-87; United States v. 5358310, at *6 (citation omitted). The
Laughton, 409 F.3d 744, 751 (6th Cir. district court then found the absence of
2005).
probable cause based on another line of
cases holding that "[t]he mere fact that
Second, Detective Evans could reasonably someone is a drug dealer is not alone
conclude that Reed's ongoing drug dealing sufficient to establish probable cause to
sufficed to trigger our "well established" search their home." Reed, 2020 U.S. Dist.
principle "that if there is probable cause to LEXIS 99958, 2020 WL 3050771, at *7
suspect an individual of being an ongoing (citation omitted). We cannot fault Evans
drug trafficker, there is a sufficient nexus (or the state judge) for concluding that
between the evidence sought and that probable cause exists because of this room
individual's home." Feagan, 472 F. App'x at for reasonable legal debate. See Ross, 487
392. Critically, our precedent leaves unclear F.3d at 1123.
the amount of drug activity required to
invoke this nexus principle. Sometimes we Third, Evans did not rely on Reed's drug
have suggested that it applies to "a large, activity alone. His affidavit described his
ongoing drug trafficking operation." Brown, experience investigating drug crimes, noting
828 F.3d at 383 n.2. Other times, though, that "he has participated in numerous drug

Page 15 of 25
993 F.3d 441, *452; 2021 U.S. App. LEXIS 9526, **20; 2021 FED App. 0078P (6th Cir.), ***13

arrests,
drug
seizures,
and
drug
investigations [**21] during his career as a
police officer." And Evans indicated that his
belief that probable cause existed to search
Reed's home was based, in part, on this
experience. In many cases, courts have
highlighted an "affiant officer's experience
that drug dealers keep evidence of dealing at
their residence" as an additional reason to
find probable cause to search the drug
dealer's home. Sumlin, 956 F.3d at 886
(quoting Goward, 188 F. App'x at 358); see
also Ross, 487 F.3d at 1123. Here, Evans's
experience at least provides another reason
to trigger Leon's exception. See, e.g., United
States v. Acosta-Barrera, 819 F. App'x 366,
372 (6th Cir. 2020); Ardd, 911 F.3d at 352;
United States v. Schultz, 14 F.3d 1093, 1098
(6th Cir. 1994). We already made this point
in Schultz, which addressed the search of a
defendant's safe-deposit box. 14 F.3d at
1098. The police in that case had probable
cause to believe that the defendant had
engaged in a drug crime. Id. Although that
fact did not suffice to create probable cause
to search the safe-deposit box, we
nevertheless applied Leon's good-faith
exception to that search. Id. To do so, we
relied on the officer's suggestion that, in his
training and experience, drug dealers
sometimes keep drug records in safe-deposit
boxes. Id.
Fourth, when assessing the reasonableness
of Detective Evans's conduct, we cannot
lose sight of "the fact-intensive nature of the
probable cause inquiry in known
drug [**22] dealer cases[.]" Brown, 828
F.3d at 384. HN8[ ] Because probable
cause entails a deep dive into the totality of

the circumstances, "officers will often find
it difficult to know how the general standard
. . . applies in 'the precise situation
encountered.'" District of Columbia v.
Wesby, 138 S. Ct. 577, 590, 199 L. Ed. 2d
453 (2018) (citation omitted). As we have
said, "[t]he factual gradations in this type of
case are often [***14] difficult to discern
even after a studied examination of the
various judicial opinions." Savoca, 761 F.2d
at 298. Given our "struggle" to reconcile
our caselaw, Brown, 828 F.3d at 382, in
these "frothy" nexus "waters," Ardd, 911
F.3d at 351, how can we expect nonlawyer
officers to know better than judges that their
affidavits do not suffice except in obvious
cases? The "imprecise nature" of this
inquiry supports our conclusion that Evans's
actions fall within the range of
reasonableness permitted by Leon. See
Wesby, 138 S. Ct. at 590; cf. Renico v. Lett,
559 U.S. 766, 776, 130 S. Ct. 1855, 176 L.
Ed. 2d 678 (2010).
[*453] D
Reed's responses fall short. He suggests that
we should review the government's Leon
claim only for plain error because the
government failed to preserve the claim in
the district court. Not so. Unlike in cases in
which the government raised no Leon claim
in the district court, cf. United States v.
Hahn, 922 F.2d 243, 247-48 (5th Cir.
1991), the magistrate judge and district
court both recognized that the government
raised such a claim here, Reed, 2020 U.S.
Dist. LEXIS 100537, 2020 WL 5358310, at
*6 n.6; Reed, 2020 U.S. Dist. LEXIS 99958,
2020 WL 3050771, at *4. Reed responds

Page 16 of 25
993 F.3d 441, *453; 2021 U.S. App. LEXIS 9526, **22; 2021 FED App. 0078P (6th Cir.), ***14

that the government [**23] did not raise
one subsidiary argument—that the court
may consider all three of Detective Evans's
affidavits when deciding whether the Leon
exception applies. We fail to see how this
fact would subject the government's entire
claim to plain-error review. Nor did the
government forfeit its sub-argument. HN9[
] Our forfeiture cases "recognize[] a
distinction between failing to properly raise
a claim before the district court and failing
to make an argument in support of that
claim." United States v. Hamm, 952 F.3d
728, 742 (6th Cir. 2020) (quoting Leonor v.
Provident Life & Accident Co., 790 F.3d
682, 687 (6th Cir. 2015)). Along those
lines, we typically find no forfeiture on
appeal when "a particular authority or strain
of the argument was not raised below, as
long as the issue itself was properly raised."
Mills v. Barnard, 869 F.3d 473, 483 (6th
Cir. 2017). Because the government
properly raised its Leon argument in the
district court, that rule applies here.
If anything, Reed's plain-error argument
undercuts his claim against Leon. To begin
with, Reed does not challenge the merits of
the government's argument that we may
consider all three affidavits. Nor could he.
HN10[ ] We have held that "a court
reviewing an officer's good faith under Leon
may look beyond the four corners of the
warrant affidavit to information that was
known to the officer and revealed to the
issuing magistrate." [**24] Frazier, 423
F.3d at 535-36; cf. [***15] United States
v. Davis, 970 F.3d 650, 666 (6th Cir. 2020).
And as the federal magistrate judge found in
this case, the state judge had the sworn facts

in the other affidavits (such as the fact that
Reed had many prior felony drug
convictions) "before her at the time the
three search warrants were issued." Reed,
2020 U.S. Dist. LEXIS 100537, 2020 WL
5358310, at *2 n.2; see also Reed, 2020
U.S. Dist. LEXIS 99958, 2020 WL 3050771,
at *1. In addition, Reed's plain-error
argument concedes that our law is
"unsettled" "regarding the validity of a
warrant based solely on an individual's drug
activity[.]" Appellee's Br. 18. That admitted
lack of clarity shows why Detective Evans
could reasonably rely on a judge's finding
that Reed's drug activity sufficed to
establish probable cause. See Ross, 487 F.3d
at 1124; Hodge, 246 F.3d at 309.
Even considering all three affidavits, Reed
next notes, Evans did not identify enough
recent drug activity to provide probable
cause to search his home. We agree that our
prior decisions finding probable cause based
on drug activity have involved larger
amounts of drugs. See United States v.
Davis, 751 F. App'x 889, 891 (6th Cir.
2018) ("11 kilograms" of cocaine); Feagan,
472 F. App'x at 384-85 (kilograms of
cocaine); Gunter, 551 F.3d at 481
("repeated purchases of cocaine in the one
to four kilogram range"); Kenny, 505 F.3d
at 461 ("a methamphetamine lab" "along
with a kilo of methamphetamine"); Goward,
188 F. App'x at 358 ("controlled marijuana
sales" and "delivery of twenty-two bricks of
marijuana"); Newton, 389 F.3d at 634 (large
marijuana transactions); [**25] Miggins,
302 F.3d at 393 ("one kilogram of
cocaine"). But we have never squarely held
that a certain volume of drug activity was

Page 17 of 25
993 F.3d 441, *453; 2021 U.S. App. LEXIS 9526, **25; 2021 FED App. 0078P (6th Cir.), ***15

necessary to provide probable cause to
[*454] search a drug dealer's home. Cf.
McCoy, 905 F.3d at 417. Regardless, we
need not decide whether Reed's two
controlled buys and other suspicious
activity sufficed in this case. As noted, we
have made inconsistent statements on the
amount of required drug activity. Compare
McCoy, 905 F.3d at 418 & n.5, with Brown,
828 F.3d at 383 n.2. And Evans could
reasonably believe that the ongoing nature
of Reed's drug dealing (as compared to the
quantity of drugs sold) is what creates the
fair probability that evidence would be
located at his home. Cf. Peffer, 880 F.3d at
273. At the least, the evidence of Reed's
recent drug transactions was not "so vague
as to be conclusory or meaningless" under
Leon's good-faith exception. Carpenter, 360
F.3d at 596.

indulge it." Id. We think the inference that,
in Evans's experience, drug dealers keep
evidence at their homes is obvious from the
affidavit's face. The affidavit identified
Evans's experience and tied his belief that
Reed's home would contain drug proceeds
or drug records to that experience. A more
express statement would surely have
triggered Leon—as we already held in
Schultz. See 14 F.3d at 1098. And making
the omission of a such a statement
dispositive would create a "magic words"
requirement that our cases have rejected.
See United States v. Christian, 925 F.3d
305, 310 (6th Cir. 2019) (en banc) (quoting
Allen, 211 F.3d at 975).
***
To reiterate: We do not resolve whether the
police had probable cause to search Reed's
home. And the fact that an affidavit exceeds
Leon's low "bare-bones" bar does not make
it a model of good police work. Cf. Ardd,
911 F.3d at 351. But Detective Evans's
affidavits in this case clear that bar. So the
district court should not have suppressed the
evidence obtained from Reed's home or the
statements that Reed made after the search.
We thus reverse the district [**27] court's
suppression order and remand for further
proceedings consistent with this opinion.

[***16] Reed lastly notes that, unlike in
other cases, Evans's affidavit indicated
generally that his experience supported his
belief that probable cause existed; the
affidavit did not state specifically that, in
Evans's "experience, drug dealers often
keep evidence of their criminal activity at
their homes." Ardd, 911 F.3d at 352;
Goward, 188 F. App'x at 358-59. HN11[ ]
But we assess an affidavit "on the adequacy
of what it does contain, not on what it lacks,
or on what a critic might say [**26] should Dissent by: CLAY
have been added." United States v. Allen,
211 F.3d 970, 975 (6th Cir. 2000) (en Dissent
banc). And we must "read the affidavit
reasonably" by "employing a healthy dose
of common sense." White, 874 F.3d at 502. [***17] DISSENT
So "[i]f an inference is obvious from the
factual context, a reviewing court should CLAY, Circuit Judge, dissenting. The

Page 18 of 25
993 F.3d 441, *454; 2021 U.S. App. LEXIS 9526, **27; 2021 FED App. 0078P (6th Cir.), ***17

majority opinion attempts to functionally
dispense with the probable cause
requirement for searches of an individual's
residence under the guise of a law
enforcement officer's "good faith" reliance
on a facially invalid search warrant. The
opinion begins by erroneously placing equal
value on two competing principles—that
probable cause to arrest an individual is not
sufficient to search the individual's home,
and that officers can use "common sense" in
determining where an individual will hide
evidence of an alleged crime—as a means
of justifying the search of an individual's
home. Despite some inconsistencies, the
weight of our precedent affirms that law
enforcement cannot search the residence of
an individual suspected of criminal activity
in the absence of probable [*455] cause for
the search, even where the suspect is a
"known drug dealer," if the affidavit
supporting the warrant does not demonstrate
a nexus between the individual's residence
and the alleged criminal activity. And in the
context of the good faith exception, the
affidavit must still [**28] demonstrate a
minimally sufficient nexus to the residence
in order for an officer to reasonably rely on
the warrant in executing the search.
In mischaracterizing the affidavit at issue as
presenting a close case regarding whether
there was probable cause to search the
residence,1 the majority makes its
1 At

the end of the opinion, the majority claims to not resolve the
question of whether the affidavit supporting the warrant provided
probable cause to search the residence. But the majority's lengthy
discussion of what is necessary to establish a sufficient nexus
between a drug trafficker's home and alleged drug activity in a
search warrant for probable cause all but leads to the conclusion that
the majority is arguing that the affidavit supporting the warrant did
provide probable cause to search Reed's home.

conclusion that the good faith exception
applies seem all but predetermined. But in
fact, the affidavit failed to provide the
requisite probable cause to search
Defendant Terry Reed's residence at Kate
Bond Road because it included no
information indicating that there was a fair
probability that evidence of drug trafficking
would be found in the home. Given that the
clear lack of a nexus between the criminal
activity and the residence rendered reliance
on the warrant objectively unreasonable, the
good faith exception is inapplicable. See
United States v. Brown, 828 F.3d 375, 38586 (6th Cir. [***18] 2016) ("Although the
good-faith standard is less demanding than
the standard for probable cause, the affidavit
still must draw some plausible connection to
the residence.").
In creating the good faith exception in
United States v. Leon, the Supreme Court
noted that the exception was "not intended
to
signal
[the
Supreme
Court's]
unwillingness [**29] strictly to enforce the
requirements of the Fourth Amendment,"
and the Supreme Court went as far as to say
that it "d[id] not believe that it will have this
effect." 468 U.S. 897, 924, 104 S. Ct. 3405,
82 L. Ed. 2d 677 (1984). The application of
the good faith exception is not intended to
have the untoward consequence of
disincentivizing courts from enforcing the
probable cause requirement, but its use in
the instant case virtually would allow courts
to rubber stamp warrants based on affidavits
containing no nexus to the place being
searched. Because the majority opinion
impermissibly applies the good faith
exception, I respectfully dissent and would

Page 19 of 25
993 F.3d 441, *455; 2021 U.S. App. LEXIS 9526, **29; 2021 FED App. 0078P (6th Cir.), ***18

affirm the district court's suppression of the at 916, 918.
evidence obtained pursuant to the warrant at
[***19] We have applied the good faith
issue.
exception "in cases where we determined
that the affidavit contained a minimally
I. Application of the Good Faith
sufficient nexus between the illegal activity
Exception to the Affidavit in Support of
and the place to be searched to support an
the Warrant to Search Reed's Kate Bond officer's good-faith belief in the warrant's
Road Residence
validity, even if the information provided
was not enough to establish probable
Because the government on appeal does not cause." United States v. Carpenter, 360
contest the district court's finding that the F.3d 591, 596 (6th Cir. 2004). This is
search warrant for Reed's home at the Kate because the inquiry under the good faith
Bond Road residence was not supported by exception is focused on "whether the
probable cause, the present case turns on executing officers 'reasonably believed
whether the good faith exception applies to that [**31] the warrant was properly
preclude invocation of the exclusionary issued, not whether probable cause existed
rule. Generally, "[w]hen evidence is in fact.'" United States v. Kinison, 710 F.3d
obtained in violation of the Fourth 678, 685 (6th Cir. 2013) (quoting United
Amendment,
the
judicially States v. Laughton, 409 F.3d 744, 752 (6th
developed [**30] exclusionary rule usually Cir. 2005)).
precludes its use in a criminal proceeding
against the victim of the illegal search and But we have noted that the good faith
seizure." Brown, 828 F.3d at 385 (quoting exception is inapplicable "where the
Illinois v. Krull, 480 U.S. 340, 347, 107 S. affidavit was nothing more than a 'bare
Ct. 1160, 94 L. Ed. 2d 364 (1987)). In Leon, bones' affidavit that did not provide the
the Supreme Court created the good faith magistrate with a substantial basis for
exception to the exclusionary rule, under determining the existence of probable cause,
which evidence obtained pursuant to an or where the affidavit was so lacking in
unconstitutional [*456] search or seizure is indicia of probable cause as to render
not excluded if the officer acted in official belief in its existence entirely
"objectively reasonable reliance on a unreasonable."2 United States v. Hython,
subsequently invalidated search warrant." 443 F.3d 480, 484 (6th Cir. 2006). An
468 U.S. at 922. The animating principle
behind the good faith exception is that "the
2 In its discussion of the good faith exception, the majority opinion
exclusionary rule is designed to deter police emphasizes the fact that the present warrant was issued by a state
misconduct," and "when the offending court judge, on whose probable cause determination an officer
be expected to defer. But this does not mean that in our
officers act[] in the objectively reasonable should
review of the officer's reliance on the warrant we need to abdicate
belief that their conduct did not violate the altogether to the judge's probable cause determination. See Leon, 468
Fourth Amendment" the exclusionary rule U.S. at 914 (noting that, while courts "accord[] 'great deference' to a
magistrate's determination" of probable cause, "[d]eference to the
does not serve the same deterrent effect. Id. magistrate . . . is not boundless").

Page 20 of 25
993 F.3d 441, *456; 2021 U.S. App. LEXIS 9526, **31; 2021 FED App. 0078P (6th Cir.), ***19

affidavit is "bare bones" if it does not "state
more than 'suspicions, or conclusions,
without providing some underlying factual
circumstances regarding veracity, reliability,
and basis of knowledge'" or "make 'some
connection' between the illegal activity and
the place to be searched." United States v.
Ward, 967 F.3d 550, 554 (6th Cir. 2020)
(quoting United States v. Christian, 925
F.3d 305, 312-13 (6th Cir. 2019) (en banc)).
In "review[ing] a warrant application for
indicia of probable cause," we "examin[e]
the totality of the circumstances" and
"consider both the facts outlined in the
affidavit and the reasonable inferences
permissibly drawn from those facts." United
States v. McCoy, 905 F.3d 409, 416 (6th
Cir. 2018) (quoting United States v. White,
874 F.3d 490, 502 (6th Cir. 2017)).
It is true that we have not clearly stated "the
quantum of evidence needed to connect
drug trafficking by an individual to a
probability that evidence will be [**32]
found at the individual's residence" for
purposes of establishing probable cause or
applying the good faith exception.
[***20] United States v. Ardd, 911 F.3d
348, 351 (6th Cir. 2018). Compare United
States v. Williams, 544 F.3d 683, 687 (6th
Cir. 2008) (indicating that it is reasonable to
"infer that drug traffickers use their homes
to store drugs and otherwise further their
drug trafficking"), with United States v.
Frazier, 423 F.3d 526, 533 (6th Cir. 2005)
(But "the allegation that the defendant is a
drug dealer, without more, is insufficient to
tie the alleged criminal activity to the
defendant's residence."). [*457] We have
even made inconsistent statements within a

single opinion regarding the evidence
needed to infer that an individual has
evidence of drug activity in his or her home.
For example, in McCoy, we stated that "[t]o
infer permissibly that a drug-dealer's home
may contain contraband, the warrant
application must connect the drug-dealing
activity and the residence," which typically
would "require some 'facts showing that the
residence had been used in drug trafficking,
such as an informant who observed drug
deals or drug paraphernalia in or around the
residence.'" 905 F.3d at 417 (quoting
Brown, 828 F.3d at 383). But we later noted
that "facts showing that the defendant's
residence had been used in drug trafficking
are not always necessary for application of
the inference that drug contraband [**33]
will be found in the drug dealer's home,"
particularly if there is reliable evidence of
continual and ongoing drug trafficking
operations or "based on the defendant's
record of past drug convictions coupled
with recent, reliable evidence of drug
activity." Id. at 417-18. Despite these
inconsistencies, barring the exceptional
case, we still require "some connection" in
the affidavit "between the criminal activity
at issue and the place to be searched" before
applying the good faith exception. White,
874 F.3d at 497 (internal quotations
omitted).
In the present case, the affidavit supporting
the warrant to search Reed's residence at
Kate Bond Road did not include any
information connecting the residence to
alleged drug activity, other than a
conclusory statement that Detective Evans
believed "Terry Reed is in possession of the

Page 21 of 25
993 F.3d 441, *457; 2021 U.S. App. LEXIS 9526, **33; 2021 FED App. 0078P (6th Cir.), ***20

following described property, to wit:
Bank/Financial Records, U.S. Currency,
Drug Records, and Proceeds from Drug
Funds contrary to the laws of Tennessee."
(R. 28-1, Reed Search Warrants at PageID #
41.) In contrast to Ardd, in which the
officer's affidavit "confirmed that, in his
experience, drug dealers often keep
evidence of their criminal activity at their
homes," 911 F.3d at 352, in the instant case
Detective [**34] Evans only generally
referenced his training in drug investigation
and participation "in numerous drug arrests,
drug seizures, and drug investigations." (R.
28-1, Reed Search Warrants at PageID #
41.) Any "common-sense"
[***21]
inference by Evans that Reed had
contraband in his home needed to be
supported by some reference in the affidavit
to drug activity at the residence; otherwise,
it was not "obvious" that the home would
contain such evidence. See White, 874 F.3d
at 500 (finding that the affidavit provided a
"minimal connection between White's drug
trafficking and his residence" in which the
affidavit "recount[ed] a drug sale on the
premises" of the residence). And the few
other mentions of his residence in the
affidavit were that a confidential informant
"confirmed that Dominique Johnson is
Terry [R]eed's girlfriend and that they live
together," "Dominique Johnson has active []
utilities in her name for [] Kate Bond," and
Detective Evans and Detective Gross
"observed Dominique Johnson and Terry
Reed leave their residence together driving
a brown Cadillac Escalade," none of which
tie the residence to any drug trafficking
activity. (R. 28-1, Reed Search Warrants at
PageID # 41.) As a result, the affidavit

did [**35] not provide "a plausible
connection to the residence." Brown, 828
F.3d at 385-86 (finding that the affidavit
was lacking in indicia of probable cause to
search the defendant's residence because
"[s]ave for a passing reference to Brown's
car registration, the affidavit [wa]s devoid
of facts connecting the residence to the
alleged drug dealing activity").
Despite the lack of residential nexus, the
majority erroneously concludes that the
district court's order granting Reed's motion
to suppress should be reversed based on the
application of the good faith exception
because the affidavit indicated that Reed
participated in continual and ongoing
[*458] drug activity and due to Reed's
status as a known drug dealer. But the
majority exaggerates what information was
included in the affidavit to allow a
reasonable inference of the necessary
residential nexus.3 For one, the affidavit
supporting the warrant to search Reed's
residence does not demonstrate continual
and ongoing drug activity as it only
mentioned two controlled buys by a
confidential informant,4 none of which took
3 We

should also be cautious of placing additional weight on a
finding that a known drug dealer is participating in "continual and
ongoing drug activity" for purposes of applying the good faith
exception. It is inherent in the term "known drug dealer" that the
individual is presently participating in drug trafficking, and such a
finding does not warrant the application of the good faith exception
where the affidavit does not include a minimally sufficient nexus
between the residence to be searched and evidence of drug activity.
4 The

majority misreads McCoy to suggest that "recent, reliable
evidence of drug activity" is enough to establish continual and
ongoing drug transactions that provide a reasonable inference that a
drug trafficker has evidence of drug activity in his or her home.
(Majority Op. at 12.) But, in fact, we stated in McCoy that under a
"continual-and-ongoing-operations theory" we "have found a nexus
between drug activity and a defendant's residence based on the

Page 22 of 25
993 F.3d 441, *458; 2021 U.S. App. LEXIS 9526, **35; 2021 FED App. 0078P (6th Cir.), ***21

place at his Kate Bond Road [***22]
residence. (R. 28-1, Reed Search Warrants
at PageID # 41 ("A Memphis, Tennessee
Police
Department,
Confidential
Informant [**36] (CI) has observed Terry
Reed selling marijuana from [] Jackson
Avenue and [] Orchi, in Memphis TN.").)
Though the affidavit noted that the
controlled buys occurred recently—within
20 days and 5 days, respectively, of when
the warrant was executed—it failed to
include how much marijuana Reed allegedly
sold to the confidential informant, cutting
against a finding that his drug activities
were continual and ongoing. Cf. Ardd, 911
F.3d at 352 (noting that the defendant
"repeatedly told [the affiant] that he wanted
distribution quantities of cocaine and that he
was ready to buy over 250 grams of cocaine
from [the affiant]").
While the district court found that Reed was
a known drug dealer, the affidavit for the
residence did not mention that Reed had
previously been convicted of any drugrelated offenses. Additionally, it neither said
nor independently corroborated that Reed
was a known drug dealer. See United States
v. McPhearson, 469 F.3d 518, 524 (6th Cir.
2006) (finding that an inference that a
person arrested "outside his home with
drugs on his person" would have drugs and
drug paraphernalia in his residence was only
permissible where there was an additional
fact to support this inference, i.e., "the
defendant's record of past drug convictions coupled with recent,
reliable evidence of drug activity." McCoy, 905 F.3d at 418. Without
the addition of past drug convictions, as indicated in McCoy,
continuous and ongoing drug transactions include the "defendant's
having engaged in regular or repetitive drug sales involving a large
quantity of drugs." Id.

independently corroborated fact that the
defendants [**37] were known drug dealers
at the time the police sought to search their
homes"). Given the above, the affidavit was
"lacking in indicia of probable cause" such
that the good faith exception does not apply.
See Ward, 967 F.3d at 555 (finding that the
good faith exception did not apply to an
affidavit that "ha[d] neither a tip alleging
that Ward sold drugs from his home, a
controlled buy at Ward's residence,
evidence of numerous drug convictions, nor
the prompt action by law enforcement").
II. Government's Forfeiture of Argument
that the Good Faith Exception Applies
Based on All Three Affidavits Presented
to the Magistrate
The majority also incorrectly assumes that
we can look to the two other affidavits
[*459] for warrants to search a residence
on Orchi Road and the business "OK Tire"
on Jackson Avenue, both of which were
presented to the magistrate at the same time
as the warrant for the Kate Bond Road
residence, in determining whether the good
faith exception should apply to prevent
[***23] exclusion of the evidence obtained
pursuant to the warrant at issue. Despite the
warrants
being
presented
contemporaneously, there is no indication
that the magistrate considered the other two
affidavits when issuing the warrant
to [**38] search the Kate Bond Road
residence. In fact, the magistrate signed the
warrant to search the Kate Bond Road
residence before signing the other two
warrants, meaning that the magistrate likely
reviewed the Kate Bond Road warrant and

Page 23 of 25
993 F.3d 441, *459; 2021 U.S. App. LEXIS 9526, **38; 2021 FED App. 0078P (6th Cir.), ***23

made the probable cause determination
before reviewing the other affidavits. If this
was the case, then the information from the
other two affidavits was not "revealed to the
issuing magistrate." Frazier, 423 F.3d at
535.
We also held in Laughton that "a
determination of good-faith reliance, like a
determination of probable cause, must be
bound by the four corners of the affidavit."
409 F.3d at 751. But the majority is correct
that in Frazier we made an exception to
Laughton, allowing "a court reviewing an
officer's good faith under Leon [to] look
beyond the four corners of the warrant
affidavit to information that was known to
the officer and revealed to the issuing
magistrate." 423 F.3d at 535. We reasoned
that Laughton was distinguishable from
Frazier because the affiant told the
magistrate that a confidential informant
"had recorded Frazier's participation in two
drug deals" and "included and swor[e] to
this information in five related warrant
affidavits presented contemporaneously to
the magistrate judge." [**39] 5 Id.; see also
Hython, 443 F.3d at 488 ("The exception
delineated in Frazier is in accord with the
guiding principle of the Laughton rule, that
'the test for good faith reliance, because it is
an objective one, does not permit
consideration of the executing officer's state
5 It

is worth noting that, in later cases, we have not consistently made
this distinction and have sometimes simply indicated that the court is
"bound by the four corners of the affidavit" in determining whether
an affidavit is "bare bones" and not within the good faith exception.
United States v. Rose, 714 F.3d 362, 367 (6th Cir. 2013); see also
Christian, 925 F.3d at 314 (en banc) (Thapar, J., concurring) (noting
that "because of our precedent, we must ignore critical evidence of
which the officers undisputedly knew and isolate the good-faith
analysis to the four corners of the affidavit").

of mind.'" (quoting Laughton, 409 F.3d at
750)).
Nonetheless, the government has likely
forfeited any argument that the other two
affidavits support the application of the
good faith exception to the warrant at issue
on appeal.6 [***24] Both before the
magistrate judge and the district court the
government argued that there was probable
cause to support the warrant and, in the
alternative, the good faith exception
applied [*460] based solely on the affidavit
for the warrant to search Reed's Kate Bond
Road residence. (See R. 29, Gov't Resp. to
Mot. to Suppress at PageID # 67 ("[T]he
affidavit detailed the detective's[] efforts to
investigate and corroborate the confidential
informant's information.").) We have
previously indicated that "[w]hen a party
neglects to advance a particular issue in the
lower court, we consider that issue forfeited
on appeal." Greer v. United States, 938 F.3d
766, 770 (6th Cir. 2019) (finding that the
government forfeited its arguments raised
for the first time on appeal that the
defendant had waived [**40] his argument
that he did not qualify as an Armed Career

6 Reed

presents this contention in the brief as requiring the
application of plain error to the government's challenge to the motion
to suppress on appellate review. However, plain error applies when
one of the parties fails to raise a claim, as opposed to an individual
argument, before the district court. See United States v. Bostic, 371
F.3d 865, 870 (6th Cir. 2004) (noting that the government's
challenge on appeal opposing the downward departure from the
Guidelines is reviewed for plain error because "the government
failed to object adequately in the district court to Bostic's motion for
a downward departure"). Because the government raised the issue of
the applicability of the good faith exception below, the claim can be
reviewed de novo. But, as indicated above, the government failed to
raise any argument as to the applicability of the good faith exception
based on the other two affidavits being before the magistrate;
therefore, that argument is forfeited on appeal.

Page 24 of 25
993 F.3d 441, *460; 2021 U.S. App. LEXIS 9526, **40; 2021 FED App. 0078P (6th Cir.), ***24

Criminal based on his stipulation in the plea
agreement to the contrary and the plea's
appellate waiver); see also Hunter v. United
States, 160 F.3d 1109, 1113 (6th Cir. 1998)
("But, as with any other argument, the
government can forfeit a waiver argument
by failing to raise it in a timely fashion.").
Given that the government failed to make
this argument below, and the government
has not explained why this constitutes an
"exceptional case" warranting an excusal of
the forfeiture, the government has forfeited
the argument on appeal. Cradler v. United
States, 891 F.3d 659, 666 (6th Cir. 2018).
In finding that forfeiture does not apply to
this argument, the majority cites to case law
"recogniz[ing] a distinction between failing
to properly raise a claim before the district
court and failing to make an argument in
support of that claim." United States v.
Hamm, 952 F.3d 728, 742 (6th Cir. 2020)
(quoting Leonor v. Provident Life &
Accident Co., 790 F.3d 682, 687 (6th Cir.
2015)); see also Mills v. Barnard, 869 F.3d
473, 483 (6th Cir. 2017) ("An argument is
not forfeited on appeal because a particular
authority or strain of the argument was not
raised below, as long as the issue itself was
properly raised."). In these cases, we found
that the party against whom forfeiture was
being asserted could make new legal
arguments on appeal not raised below so
long as the claim was properly preserved.
See Hamm, 952 F.3d at 742 (finding that
the [***25] defendants [**41] had not
forfeited their argument on appeal that
"Pinkerton does not apply to the sentencing
enhancement for Counts 2 and 3" because
they "have been consistent about their

objection" and "have consistently argued
that Pinkerton liability is inapplicable");
Mills, 869 F.3d at 483 (finding that the
defendant could rely on a case on appeal
that was not cited to the district court in
support of his preserved contention that
there was no probable cause for his
prosecution). In contrast, in the instant case,
the government failed to present facts from
the other two affidavits in support of their
contention that the good faith exception
should prevent the exclusion of evidence
obtained pursuant to the Kate Bond Road
residence search warrant. See United States
v. Archibald, 589 F.3d 289, 295-96 (6th Cir.
2009) ("The purpose behind the waiver rule
is to force the parties to marshal all of the
relevant facts and issues before the district
court, the tribunal authorized to make
findings of fact."). Because the government
should have made this factual argument to
the district court to consider in the first
instance, the argument is forfeited on
appeal, and the majority has erred by
considering facts from the OK Tire and
Orchi Road affidavits in their analysis.
Notwithstanding the [**42] forfeiture of
this argument on appeal, even considering
the information from the other two warrants,
the good faith exception should not apply to
prevent suppression of the warrant at issue
because the other two affidavits do not
include any information specifically linking
Reed's alleged drug trafficking activity to
his residence. Neither of these affidavits
provides
any
information
demonstrating [*461]
that Reed was
engaging in drug transactions at the Kate
Bond Road residence or indicating that

Page 25 of 25
993 F.3d 441, *461; 2021 U.S. App. LEXIS 9526, **42; 2021 FED App. 0078P (6th Cir.), ***25

evidence of drug trafficking would be found
at the residence. The Orchi Road dwelling
affidavit does discuss a brown Cadillac
Escalade, which was similarly mentioned in
the Kate Bond Road residence affidavit,
noting that "[w]ithin the past 5 days, your
affiant has observed Terry Reed driving a
brown Cadillac Escalade with TN tags [],"
"Reed parks his vehicle at 3792 Orchi," and
"[y]our affiant observed Reed make hand to
hand transactions by walking outside the
house to people that would pull up in front
of the residence." (R. 28-1, Reed Search
Warrants at PageID # 47.) However, the
affiant did not indicate that Reed was seen
driving to the Kate Bond Road residence
following
these
transactions,
identify [**43]
the brown Cadillac
Escalade as the same car mentioned in the
Kate Bond Road residence affidavit, or
discuss whether Reed placed the items
transferred in these transactions into the car
to be stored at the Kate Bond Road
residence. [***26] Accordingly, these
affidavits still do not provide a minimally
sufficient nexus to the Kate Bond Road
residence to justify application of the good
faith exception.7

For the foregoing reasons, I respectfully
dissent and would affirm the district court's
order granting Reed's motion to suppress the
evidence obtained from the officers' search
of the Kate Bond Road residence.
End of Document

7 The

affidavit for the Orchi dwelling does state that "Terry Reed has
4 felony and 2 misdemeanor convictions for narcotics," although it
does not specify whether the convictions are for possession or
distribution. (R. 28-1, Reed Search Warrants at PageID # 47.)
McCoy did indicate that "the defendant's record of past drug
convictions coupled with recent, reliable evidence of drug activity"
could be enough for a reasonable inference that the defendant has
evidence of drug activity at their home. 905 F.3d at 418. But this
statement amounts to dicta—in McCoy we ultimately determined
that the good faith exception applied because of the circumstances of
the defendant's arrest and the information from the confidential
informant providing some connection between drug activity and the
residence. Id. at 420; see also Ward, 967 F.3d at 556
(distinguishing [**44] McCoy based on the fact that "the defendant's
house was [] searched only after he was arrested in possession of

large amounts of marijuana and cash, and a confidential informant
relayed that the defendant and others sold marijuana from two stores,
that the defendant and others involved in the drug distribution lived
together, and that the informant saw guns and marijuana at their
residence").

